TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Tax-Exempt User Fee Processing
                       Improved for Dishonored Checks and
                             Refund of Overpayments



                                           July 13, 2010

                              Reference Number: 2010-10-085




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


TAX-EXEMPT USER FEE PROCESSING                        The overall objectives of this review were to
IMPROVED FOR DISHONORED CHECKS                        determine whether controls were strengthened
AND REFUND OF OVERPAYMENTS                            to identify and prevent issuance of
                                                      determination letters when customer user fee
                                                      checks are dishonored; and whether controls
Highlights                                            were strengthened to identify, control, and
                                                      timely resolve user fee overpayment conditions.
Final Report issued on July 13, 2010                  WHAT TIGTA FOUND
Highlights of Reference Number: 2010-10-085           Since our previous audit, Tax Exempt and
to the Internal Revenue Service Commissioner          Government Entities Division management has
for the Tax Exempt and Government Entities            focused on employee training and alternative
Division.                                             manual process changes to improve their
                                                      handling of user fee payments. As a result, the
IMPACT ON TAXPAYERS                                   vast majority of determination letters are issued
                                                      only when the user fee has been paid, and the
Charitable organizations and retirement plan
                                                      vast majority of user fee refunds are being
administrators submit determination requests
                                                      identified and processed for timely issuance.
and pay user fees for the Internal Revenue
                                                      However, determination letters were issued for
Service (IRS) to determine whether they meet
                                                      7 determination letter applications when
the requirements for tax-exempt status. After
                                                      customer checks were dishonored, and
review of the determination request, the IRS
                                                      13 customers submitting determination letter
issues a determination letter advising the
                                                      applications overpaid their required user fees
applicant of the results of the review. The IRS
                                                      and did not receive refunds as required.
has made improvements since our prior audit;
however, a few determination letters were             WHAT TIGTA RECOMMENDED
issued when dishonored checks were received,
and customer overpayments of user fees                TIGTA recommended the Commissioner, Tax
totaling $1,730 were not refunded to applicants.      Exempt and Government Entities Division,
The IRS must ensure the Federal Government            refund 13 overpayments that were identified by
is reimbursed for the services it performs and        the audit team and improve controls to ensure
that organizations that may need their refunds        all User Fee Refund Request forms are signed
to perform charitable activities are not              by field specialists and managers and input to
burdened.                                             computer systems for timely issuance of
                                                      refunds.
WHY TIGTA DID THE AUDIT
                                                      In their response to the report, IRS management
This audit was initiated at the request of            agreed with the recommendations and has
Tax Exempt and Government Entities Division           already taken appropriate corrective actions.
management. A Fiscal Year 2001 TIGTA audit
concluded that the Tax Exempt and
Government Entities Division issued
determination letters without receiving full
payment of user fees and did not always refund
overpayments of user fees to customers.
Although they were unable to complete all
planned corrective actions, Tax Exempt and
Government Entities Division management
requested that TIGTA perform a followup audit
to determine whether conditions noted in our
prior report still exist.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 13, 2010


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Tax-Exempt User Fee Processing Improved for
                             Dishonored Checks and Refund of Overpayments (Audit # 200910030)

 This report presents the results of our review of the effectiveness of the Tax Exempt and
 Government Entities Division’s effort to process user fee payment information. The overall
 objectives of this review were to determine whether controls were strengthened to identify and
 prevent issuance of determination letters when customer user fee checks are dishonored; and
 whether controls were strengthened to identify, control, and timely resolve user fee overpayment
 conditions. This audit was requested by Tax Exempt and Government Entities Division
 management and was conducted as part of the Treasury Inspector General for Tax
 Administration Office of Audit Fiscal Year 2010 Annual Audit Plan and addresses the major
 management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                          Tax-Exempt User Fee Processing Improved for Dishonored
                                   Checks and Refund of Overpayments




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Improvements Were Identified, but Determination Letters
          Were Issued Without Payment of User Fees and Refunds
          Were Delayed................................................................................................Page 3
                    Recommendation 1: .................................................................. Page 7

                    Recommendation 2:........................................................Page 10


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measure ................................................................Page 15
          Appendix V – Tax-Exempt User Fee Process ..............................................Page 16
          Appendix VI – Management’s Response to the Draft Report ......................Page 18
        Tax-Exempt User Fee Processing Improved for Dishonored
                 Checks and Refund of Overpayments




                     Abbreviations

EDS            Employee Plans/Exempt Organizations Determination System
EO             Exempt Organizations
EP             Employee Plans
IRS            Internal Revenue Service
LINUS          Letter and Information Network User-fee System
                       Tax-Exempt User Fee Processing Improved for Dishonored
                                Checks and Refund of Overpayments




                                             Background

Charitable organizations and retirement plan administrators submit determination requests and
pay user fees 1 for the Internal Revenue Service (IRS) to determine whether they meet
requirements for tax-exempt status. After review of the determination request, the IRS issues a
determination letter advising the applicant of the results of the review.
User fees are not charged for simple determination requests, but can range up to $15,000 for
complex retirement plans and must be submitted with the application for service. 2 The IRS
remits part of the user fee to the Department of the Treasury General Fund and retains the
remainder to offset the expense of providing determination letters. 3
A Fiscal Year 2001 Treasury Inspector General for Tax Administration audit 4 identified risks
associated with user fee processing, such as the Tax Exempt and Government Entities Division
issuing determination letters without receiving full payment of user fees and not always
refunding overpayments of user fees to customers. Based on our recommendations, Tax Exempt
and Government Entities Division management stated that through employee training and
Internal Revenue Manual and alternative manual process changes, they had decreased risks
associated with processing user fees. Although they were unable to complete all planned
corrective actions, Tax Exempt and Government Entities Division management requested in
June 2009 that we perform a followup audit to determine whether the following conditions noted
in our prior report still exist:
    •    Determination letters were issued even though personal checks that were submitted for
         the associated user fees were dishonored.
    •    User fee overpayments associated with determination applications were not always
         refunded.
Based on the request from IRS management, we limited our scope to follow up on only the
dishonored check and overpayment issues associated with determination letter requests. 5


1
  Internal Revenue Code Section 7528 requires the payment of user fees for tax-exempt determination requests.
2
  See Appendix V for a detailed overview of the tax-exempt user fee process.
3
  The IRS is allowed to retain a portion of the user fees it collects, based on criteria established in the Treasury,
Postal Service, and General Government Appropriations Act of 1995 (Pub. L. No. 103-329, 108 Stat. 2382, 2388,
September 30, 1994) (reprinted in 26 United States Code Section 7801).
4
  Additional Management Actions Are Needed to Better Process and Safeguard Tax Exempt and Government
Entities Division User Fee Payments (Reference Number 2001-10-136, dated August 22, 2001).
5
  The Tax Exempt and Government Entities Division also processes user fees for private letter rulings and opinions.
However, processing of these types of user fee payments was not addressed in this audit.
                                                                                                             Page 1
                      Tax-Exempt User Fee Processing Improved for Dishonored
                               Checks and Refund of Overpayments



During the period May 2008 through June 2009, the Tax Exempt and Government Entities
Division received 64,736 initial Exempt Organizations (EO) function determination applications 6
and 83,027 Employee Plans (EP) and EO function user fee payments totaling $49.7 million. Of
the total user fees received, 432 checks totaling $224,000 were subsequently dishonored for
nonsufficient funds and 1,925 refunds totaling $1.2 million were issued to customers for
overpayment or return of user fees.
This review was performed at the Tax Exempt and Government Entities Division National
Headquarters in Washington, D.C., and the EP and EO functions offices in Cincinnati, Ohio,
during the period October 2009 through April 2010. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Detailed information on our audit objectives, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




6
  The 64,736 EO function determination applications do not include applications for group exemption letters. Also,
we did not identify the total number of Employee Plans function determination applications received because this
information was not readily available.
                                                                                                           Page 2
                   Tax-Exempt User Fee Processing Improved for Dishonored
                            Checks and Refund of Overpayments




                                Results of Review

Improvements Were Identified, but Determination Letters Were Issued
Without Payment of User Fees and Refunds Were Delayed
Since our previous audit, Tax Exempt and Government Entities Division management has
focused on employee training and alternative manual process changes to improve their handling
of user fee payments. As a result, the vast majority of determination letters are correctly issued
when the user fees are paid, and the vast majority of user fee refunds are identified and processed
for timely issuance. However, use of these manual processes continues to incorrectly allow
issuance of some determination letters when customer checks are dishonored, and some
overpayments are delayed or not refunded to applicants. While the number of occurrences is
few, manual processes are subject to human error. IRS management must continue monitoring
these manual processes to ensure the Federal Government is reimbursed for the services it
performs and that organizations that may need their refunds to perform charitable activities are
not burdened.

The number of determination letters incorrectly issued when user fee checks
were dishonored decreased
As shown in Figure 1, the IRS is issuing fewer determination letters when user fee checks are
dishonored than we noted in our prior audit.




                                                                                            Page 3
                      Tax-Exempt User Fee Processing Improved for Dishonored
                               Checks and Refund of Overpayments



                   Figure 1: Comparison of Determination Letters Issued
                              When Checks Are Dishonored
                                                               Average Number of
                                                             Determination Letters
                                                            Issued Without Payment
                               Time Period                        per Month 7
                         Fiscal Year 2001 Audit                            3
                         Fiscal Year 2010 Audit                           ½
                     Source: Fiscal Year 2001 audit and analysis of EO function Adjustments
                     Unit Dishonored Check Logs, Letter and Information Network User-fee
                     System (LINUS), 8 and EP/EO Determination System (EDS) 9 information.

To evaluate the issuance of determination letters when customer user fee checks were
dishonored, we reviewed all 277 determination requests (270 tax-exempt organization and
7 retirement plan determination requests) with dishonored check conditions for the period
April 2008 through March 2009. 10 Determination letters were issued for 7 (2.5 percent) of
277 applications with dishonored checks totaling $4,375.
    •   6 of the 7 determination letters were issued before the Wage and Investment Division
        Cincinnati Submission Processing Center Accounting Branch notified the Tax Exempt
        and Government Entities Division EO function Adjustments Unit that the customer
        checks totaling $4,000 were dishonored. As a result, the EO function Adjustments Unit
        did not know the checks were dishonored when it issued the determination letters. The
        6 determination letters were issued on average of 37 calendar days (a range of between
        15 and 58 calendar days) after determination applications and user fee checks were
        received by the Cincinnati Submission Processing Center. However, the Cincinnati
        Submission Processing Center Accounting Branch notified the EO function Adjustments
        Unit about the dishonored checks an average of 11 calendar days (a range of between
        2 and 28 calendar days) after the determination letters were issued. EO function

7
  The Fiscal Year 2001 audit reported that nine (average of three per month) determination letters were issued when
customer user fee checks were dishonored during the 3-month period January through March 2000. The current
audit identified 7 (approximately 1 every 2 months) determination letters were issued when customer user fee
checks were dishonored during the 12-month period April 2008 through March 2009.
8
  The LINUS is the system of record for all determination application user fee payments, including any subsequent
payments submitted by the customer, dishonored checks, and refunds.
9
  The EDS is the system of record for all determination letter applications processed by the Cincinnati Submission
Processing Center.
10
   Most of the 277 determination requests were already closed on the EDS and the dishonored check indicator had
been removed by the time of our review. To evaluate the use of the dishonored check indicator, we reviewed
29 determination requests for January 2010 and determined the dishonored check indicators were timely input to the
EDS and the LINUS, and customers were timely notified of the dishonored checks for all 29 cases.
                                                                                                           Page 4
                    Tax-Exempt User Fee Processing Improved for Dishonored
                             Checks and Refund of Overpayments



       management stated the Cincinnati Submission Processing Center Accounting Branch
       processes dishonored checks through the bank twice, which accounts for much of the
       delay in notifying the EO function Adjustments Unit. In the past, EO function
       Adjustments Unit guidelines required that determination letters be held until checks
       cleared the bank. The guidelines were changed to release the determination letters sooner
       and provide better customer service to the 99 percent of customers whose checks are not
       dishonored. Because of this change, the IRS will likely be unable to completely assure
       that determination letters are only issued when the user fee is paid in full.
   • *********************************1**********************************
     ******************************************************************
     *******************************************************************
     *********************************************************************
     ********************************************************************
     *********************************************************************
     *********************************************************************
     *********************************************************************
     ********************************************************************
     *******************************************************************
     *******************************************************************
     ******
After discovering that determination letters were issued when seven user fee checks were
dishonored, EO function Adjustments Unit management contacted the customers to obtain
payment for the dishonored checks. Full payment was received for four dishonored checks and
**********************************************1*****************************
***************************************************************************
****************. However, they input a dishonored check indicator to the 3 accounts with
unpaid balances totaling $1,325 so that additional services are not performed for the tax-exempt
entities until outstanding balances are paid in full. Therefore, there is still the potential that the
IRS will receive the correct user fee if the tax-exempt entities need additional services from the
IRS.
The reason the IRS is unable to completely eliminate instances where determination letters are
issued when user fee checks have been dishonored is due in part to the current system of manual
processes. Prior to the conclusion of this review, Tax Exempt and Government Entities Division
management began taking steps to strengthen controls to decrease the risk that determination
letters will be issued without full payment of the user fee. However, as long as the processes are
manual and subject to human error, IRS management must continue monitoring these manual
processes to ensure the overall number of determination letters issued without payment remains
low. This oversight will help ensure the Federal Government does not lose revenue and EO


                                                                                                Page 5
                      Tax-Exempt User Fee Processing Improved for Dishonored
                               Checks and Refund of Overpayments



function Adjustments Unit personnel do not spend time trying to collect money for determination
letters that have already been issued.
The Cincinnati Submission Processing Center processed more than $49.7 million in user fees
during the same 13-month period that we conducted our analysis of dishonored checks. Because
we identified only $4,375 in user fee payments dishonored by the bank even though
determination letter services were provided, we are not making any recommendations at this
time.

EO function customers are not always refunded overpayments
As shown in Figure 2, there were fewer instances when the IRS did not refund overpayments as
required than we noted in our prior audit.
                         Figure 2: Comparison of Overpayments That
                                     Were Not Refunded
                                                           Average Number of
                                                             Overpayments
                                                            Not Refunded per
                               Time Period                      Month 11
                          Fiscal Year 2001 Audit                      2.6
                          Fiscal Year 2010 Audit                       1
                       Source: Fiscal Year 2001 audit and analysis of LINUS and
                       EDS data.

For the 14-month period May 2008 through June 2009, 13 of the approximately
65,000 EO function customers submitting determination letter applications overpaid their
required user fee and did not receive refunds totaling $1,730 as required. 12 Review of
determination letter case information identified the following reasons why the refunds were not
processed:
     •   10 of 13 cases did not contain User Fee Refund Request forms, indicating the
         overpayments were overlooked by the EO function field specialists and reviewing
         managers.
         ¾ In 3 of the 10 cases, EO function Adjustments Unit screeners identified the
           overpayment condition and advised the EO function field specialists at the time of


11
   The total number of determination letter user fee overpayments that were not properly refunded decreased from
31 for the 12-month period October 1999 through September 2000 to 13 for the 14-month period May 2008 through
June 2009.
12
   See Appendix IV.
                                                                                                        Page 6
                      Tax-Exempt User Fee Processing Improved for Dishonored
                               Checks and Refund of Overpayments



             case assignment that refunds were due. However, refunds were not subsequently
             issued and the closed cases did not contain User Fee Refund Request forms that
             should have been prepared by the EO function field specialists.
        ¾ In 7 of the 10 cases, the EO function Adjustments Unit screeners, EO function field
          specialists, and EO function group managers did not identify the overpayment
          conditions. 13
     • *********************************1**********************************
       ********************************************************************
       *******************************************************************
       *****************************.
     • **************************************1*******************************
       *********************************************************************
       *******************************************************************.
IRS procedures require field specialists to ensure that the correct user fee is paid by reviewing
the financial information submitted by the applicant along with the description of the activities to
determine the appropriate user fee. The field specialists’ secretaries verify the user fee amount
received on the LINUS. If the final payment amount cannot be verified on the LINUS, the
specialist or secretary should contact the EO function Adjustments Unit for proof of payment.
Tax Exempt and Government Entities Division management stated that the LINUS was not
designed to maintain account balance information that would allow for identifying customers
that have overpaid user fees. In the cases previously listed, manual processes failed to identify
and ensure refunds were initiated when customers overpaid user fees. These manual processes
are effective at decreasing risk only when each employee and manager is on the alert and
attentively performs their assigned tasks.
Prior to the conclusion of this review, the EO Adjustments Unit initiated steps to refund all
13 overpayments identified by the TIGTA and strengthen controls to ensure refunds are issued
prior to cases closing on the EDS. While the number of overpayments not refunded was
relatively small, IRS management must continue monitoring these manual processes to ensure
organizations that may need their refunds to perform charitable activities are not burdened.

Recommendation
Recommendation 1: The Commissioner, Tax Exempt and Government Entities Division,
should refund the 13 overpayments that were identified by the audit team.



13
  In 1 of these cases, the customer’s initial payment check was dishonored by the bank and the subsequent check
included an overpayment of $30.
                                                                                                          Page 7
                       Tax-Exempt User Fee Processing Improved for Dishonored
                                Checks and Refund of Overpayments



         Management’s Response: Tax Exempt and Government Entities Division
         management agreed with this recommendation and refunded the 13 overpayments on
         June 2, 2010.

Refund of overpayments for EO and EP functions customers were sometimes
delayed
Our review of 66 user fee overpayments (39 EO function and 27 EP function) for the period
June 2008 through May 2009 showed that it took an average of 11 and 19 calendar days
respectively, from the time the field specialist prepared the User Fee Refund Request form until
the refund information was input to the LINUS. However, refunds of overpayments for some
customers were sometimes delayed.
Our prior report stated the Tax Exempt and Government Entities Division had not established
specific processing standards to ensure overpayments of user fees are timely refunded and had
not developed an effective process to expedite the refund actions. Our current audit determined
that time standards have not been established for processing user fee refunds and that User Fee
Refund Request forms are not always expedited. We concluded that internal control weaknesses
allowed some forms to be significantly delayed between 40 and 130 calendar days.
To identify the timeliness of processing User Fee Refund Request forms, a judgmental sample of
90 (6 percent) of 1,518 refund records (762 EO function and 756 EP function) for the period
June 2008 through May 2009 were selected for review. We performed analysis to identify
delays in processing User Fee Refund Request forms from the time the field specialists prepared
the form 14 through the time refund information was input to the LINUS. 15 We were unable to
conduct a complete analysis of all 90 sampled cases because some User Fee Refund Request
forms were incomplete or could not be located. Forms that contained partial information were
used to the extent possible. For example, a form that did not include a manager’s signature was
still used to measure the amount of time from the date it was prepared by the field specialist
through the date it was input to the LINUS for refund.
We determined that 66 of 90 User Fee Refund Request forms were input to the LINUS an
average of 15 calendar days (range from 0 to 130 calendar days) after they were signed by field
specialists. As stated previously, time standards have not been established for processing user
fee refunds, but we believe the average of 15 calendar days is reasonable. Figure 3 shows the
number of days to process the 66 User Fee Refund Request forms.



14
   EP and EO function field specialists generally prepare User Fee Refund Request forms to refund overpayments
when the determination is made that an organization or retirement plan qualifies for tax-exempt status and that a
refundable condition exists.
15
   Testing did not include issuance of the refund because another office has that responsibility. We tested processes
under the control of only the Tax Exempt and Government Entities Division.
                                                                                                              Page 8
                                             Tax-Exempt User Fee Processing Improved for Dishonored
                                                      Checks and Refund of Overpayments



                                       Figure 3: Analysis of Time to Process Refund Requests



                                  40

                                       35
                                  35
  User Fee Refund Request Forms




                                  30


                                  25


                                  20                   19


                                  15


                                  10
                                                                     6
                                                                                            5
                                   5
                                                                                 1
                                   0
                                       0-9           10 - 19       20 - 29     30 - 39   40 - 130

                                                               Range in Days


Source: Analysis of User Fee Refund Request forms and LINUS data.

Although most of the forms we reviewed were processed within a reasonable amount of time,
5 (8 percent) of the 66 took from 40 to 130 calendar days from the time the field specialist
prepared the User Fee Refund Request forms until the refund information was entered to the
LINUS. The five most significant delays occurred while waiting for approval by the manager, or
while waiting for input to the LINUS. Because we reviewed only a sample of User Fee Refund
Request forms, the total population may contain additional forms that incurred significant delays.
For the 5 refunds that took from 40 to 130 calendar days, manual processes failed to identify and
ensure that all User Fee Refund Request forms were prepared, approved, and properly input to
the LINUS so refunds could be processed and issued within a reasonable time period. Prior to
the conclusion of this review, Tax Exempt and Government Entities Division management began
initiating steps to strengthen controls to ensure managers cannot close refund cases off the EDS
until User Fee Refund Request forms are forwarded to the EO function Adjustments Unit for
processing the refund. However, IRS management must continue monitoring these manual
                                                                                                    Page 9
                   Tax-Exempt User Fee Processing Improved for Dishonored
                            Checks and Refund of Overpayments



processes to ensure organizations that may need their refunds to perform charitable activities are
not burdened and retirement plans receive refunds timely.

Recommendation
Recommendation 2: The Commissioner, Tax Exempt and Government Entities Division,
should improve controls to ensure all User Fee Refund Request forms are signed by field
specialists and managers and input to computer systems for issuance of refunds without delay.
       Management’s Response: Tax Exempt and Government Entities Division
       management agreed with this recommendation and has issued new written procedures for
       the issuance of refunds. Among other things, the new procedures require all User Fee
       Refund Request forms to be signed by field specialists and managers. Further, the Tax
       Exempt and Government Entities Division has established new business rules in the EDS
       that prohibit managers from closing most cases in which a refund is due until the refund
       is issued. This change, combined with the existing requirement that managers close
       completed cases within 5 days, will help ensure that all refunds are promptly issued.




                                                                                           Page 10
                   Tax-Exempt User Fee Processing Improved for Dishonored
                            Checks and Refund of Overpayments



                                                                                  Appendix I


       Detailed Objectives, Scope, and Methodology

The overall objectives of this audit were to determine whether controls were strengthened to
identify and prevent issuance of determination letters when customer user fee checks are
dishonored; and whether controls were strengthened to identify, control, and timely resolve user
fee overpayment conditions. To accomplish our objective, we:

I.     Obtained an extract of LINUS data for May 2008 through June 2009 and an extract of
       EDS data for May 2008 through June 2009.

       Data validation tests were performed for both the LINUS and the EDS extracts. Data
       from both extracts were found to be accurate, but incomplete. Testing was performed to
       ensure that all fields were complete and correct data such as dates were input to date
       fields, and data were compared from the LINUS to the EDS during audit testing. During
       comparison testing from the EDS to the LINUS, we found that not all case information
       was included for the EDS extract. Since the EDS data were used to verify only
       processing actions, additional information was pulled from the EDS when the extract did
       not provide complete data. Based on our testing of the LINUS data, we determined the
       extract population was sufficiently complete, but complete information was not included
       in the extract for individual cases. Individual case information was pulled from the
       LINUS as needed to supplement the extract.

II.    Determined whether controls ensured the correct user fees were obtained by EP and
       EO functions before issuing determination letters, when customer checks were
       dishonored.

       A. Obtained the log and copies of all dishonored checks maintained by the EO function
          Adjustments Unit for April 2008 through March 2009.

       B. Reviewed LINUS data and determined whether the dishonored check code was input
          for all dishonored checks accounted for by the EO function Adjustments Unit and
          determined whether a subsequent repayment of the dishonored check was received.

       C. Analyzed EDS data and determined whether controls prevented issuance of
          determination letters for customers with dishonored checks.

       D. Obtained the EP/EO function case files for all exceptions and resolved any
          discrepancies.

                                                                                         Page 11
                         Tax-Exempt User Fee Processing Improved for Dishonored
                                  Checks and Refund of Overpayments



III.       Determined whether cases were closed and determination letters issued without resolving
           user fee overpayments from EO function customers.
           A. Performed analysis of the LINUS extract and identified potential customer
              overpayments received from May 2008 through June 2009.
           B. Reviewed all LINUS final exception cases and determined whether EO function
              specialists identified customer overpayment conditions and whether customers were
              refunded the appropriate amount.
           C. Discussed potential overpayment cases with EO function management, resolved
              discrepancies, and determined the cause of not refunding the overpayment timely.
IV.        Determined whether user fee overpayments were appropriately controlled and requests
           for refunds were timely processed once initiated by EP and EO functions field specialists.
           A. Determined through research and discussion with EP and EO functions management
              whether specific processing standards were established for the issuance of refunds for
              overpayments.
           B. Obtained the refund request logs from the EO function Adjustments Unit for
              June 2008 through May 2009.
           C. Selected a judgmental sample 1 of 90 closed refund cases from the population of
              1,518 records (762 EO function and 756 EP function) for the period June 2008
              through May 2009 for review. We obtained the related case files and documentation
              such as LINUS prints, and the User Fee Refund Request form signed by the specialist
              and group manager and performed analysis to determine the number of days to
              process refunds.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Internal Revenue Code and Tax
Exempt and Government Entities Division policies and procedures for processing determination
applications, letters, and refunds. We evaluated these controls by interviewing management,
reviewing determination cases, and reviewing LINUS and EDS data.




1
    We chose a judgmental sample because we did not plan to project our results.
                                                                                             Page 12
                 Tax-Exempt User Fee Processing Improved for Dishonored
                          Checks and Refund of Overpayments



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Allen L. Brooks, Lead Auditor
Julia Moore, Senior Auditor
Donald J. Martineau, Auditor
Michael A. McGovern, Auditor
Carol A. Rowland, Auditor




                                                                                  Page 13
                 Tax-Exempt User Fee Processing Improved for Dishonored
                          Checks and Refund of Overpayments



                                                                         Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Director, Communications and Liaison, Tax Exempt and Government Entities
       Division SE:T:CL
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 14
                   Tax-Exempt User Fee Processing Improved for Dishonored
                            Checks and Refund of Overpayments



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; $1,730 for 13 customers (see page 3).

Methodology Used to Measure the Reported Benefit:
Computer analysis of LINUS data for approximately 65,000 EO function determination
applications with user fee payments for the 14-month period May 2008 through June 2009
identified 13 customers who overpaid the correct user fee amount and did not receive refunds as
required. The total amount of refunds due to customers that had overpaid user fees was $1,730.




                                                                                          Page 15
                       Tax-Exempt User Fee Processing Improved for Dishonored
                                Checks and Refund of Overpayments



                                                                                                  Appendix V

                         Tax-Exempt User Fee Process

Tax Exempt and Government Entities Division EP and EO functions customers submit
determination applications to the Wage and Investment Division Cincinnati Submission
Processing Center in Covington, Kentucky. The Cincinnati Submission Processing Center is
responsible for front-end processing of determination letter applications and enters information
to the following computer systems:
    •    The LINUS - the system of record for all determination application user fee payments,
         including any subsequent payments submitted by the customer, dishonored checks, and
         refunds.
    •    The EDS - the system of record for all determination letter applications processed by the
         Cincinnati Submission Processing Center. All user fee payment information received
         initially, or at a later date by the Cincinnati Submission Processing Center is entered to
         the LINUS and uploaded to the EDS.
If the determination application is complete and the user fee is submitted in full, 1 the Wage and
Investment Division Cincinnati Submission Processing Center forwards the determination
application to the Tax Exempt and Government Entities Division EP/EO function Processing
Unit in Cincinnati, Ohio. The EO Adjustments Unit is part of the EP/EO function Processing
Unit and is responsible for processing both EP and EO function determination applications,
updating the status on the EDS, updating information such as dishonored checks and refunds on
the LINUS, and closing cases on the EDS. However, none of the user fee payment information
entered to the LINUS by the EO Adjustments Unit is uploaded to the EDS. EP and EO function
field specialists are responsible for reviewing financial information submitted by the applicant
along with the description of activities to determine whether the correct fee has been paid. If
sufficient information is received and the user fee is paid in full, the field specialist will issue a
determination letter informing the organization or retirement plan whether it qualifies for
tax-exempt status.
Special procedures apply when a user fee payment is dishonored or when the IRS determines a
user fee has been overpaid.



1
 A preliminary determination is made by the Wage and Investment Division Cincinnati Submission Processing
Center whether or not the user fee was paid in full. Only Tax Exempt and Government Entities Division field
specialists upon review of the determination application can make the final decision on the amount of user fee that
should be paid.
                                                                                                            Page 16
                    Tax-Exempt User Fee Processing Improved for Dishonored
                             Checks and Refund of Overpayments



Dishonored Check Process
The Cincinnati Submission Processing Center Accounting Branch notifies the EO function
Adjustments Unit when user fees paid by checks are subsequently dishonored for nonsufficient
funds. When dishonored checks are received, the EO function Adjustments Unit enters the
dishonored check to the Dishonored Check Inventory Log and inputs a dishonored check
indicator on the EDS. This indicator is intended to flag the account as having a dishonored
check and stop processing of the determination letter until the user fee is fully paid. Upon
notification of a dishonored check, the EO function Adjustments Unit, or if the case is assigned
to a field office, the field specialist, sends a letter to notify the applicant that the check did not
clear the bank and that the applicant must pay the user fee either by certified check or money
order within 2 weeks. If the payment is not received, the Tax Exempt and Government Entities
Division will notify the applicant that their determination application is being closed for failure
to pay the required user fee.
Overpayment Process
EP and EO function specialists prepare User Fee Refund Request forms when they identify that
applicants have overpaid the user fee, or when a fee is paid, but not required. The User Fee
Refund Request form must be approved by the field specialist’s group manager and forwarded to
the EO function Adjustments Unit where the refund is input to the LINUS and recorded on a
spreadsheet. A copy of the spreadsheet, LINUS data, and the User Fee Refund Request form is
forwarded to the Beckley Finance Center in Beckley, West Virginia, where funds are disbursed
for issuance of the refund.




                                                                                               Page 17
     Tax-Exempt User Fee Processing Improved for Dishonored
              Checks and Refund of Overpayments



                                                  Appendix VI


Management’s Response to the Draft Report




                                                        Page 18
Tax-Exempt User Fee Processing Improved for Dishonored
         Checks and Refund of Overpayments




                                                   Page 19
